TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                    High-Risk Work Is Selected From the
                  Unassigned Delinquent Account Inventory,
                    but Some Unassigned Accounts Need
                          Management’s Attention



                                          February 2006

                              Reference Number: 2006-30-030




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-927-7037
 Email Address | Bonnie.Heald@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                  DEPARTMENT OF THE TREASURY
                                                        WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                February 10, 2006


 MEMORANDUM FOR COMMISSIONER, SMALL BUSINESS/SELF-EMPLOYED
                DIVISION

 FROM:                         Michael R. Phillips
                               Deputy Inspector General for Audit

 SUBJECT:                      Final Audit Report – High-Risk Work Is Selected From the Unassigned
                               Delinquent Account Inventory, but Some Unassigned Accounts Need
                               Management’s Attention (Audit # 200430027)

 This report presents the results of our review of the Internal Revenue Service’s (IRS) unassigned
 delinquent account inventory. The overall objective of this review was to evaluate and profile
 Taxpayer Delinquent Accounts (TDA)1 and Taxpayer Delinquency Investigations (TDI)2 that
 either had been shelved3 or were in the Queue4 inventory.

 Synopsis
 The Collection function maintains an inventory of unassigned TDIs and TDAs in the Queue. As
 of April 18, 2005, there were 2.2 million TDI tax modules (tax periods) for 740,199 taxpayers in
 the Queue inventory. Also in the Queue, there were 2.1 million TDA tax modules for 633,602
 taxpayers who had balance-due amounts totaling $23.3 billion. This represents a slight decrease
 for TDIs from the inventory at the end of Fiscal Year (FY) 2004, while the volume of TDAs was
 relatively unchanged.
 TDIs and TDAs that are not likely to be assigned because of low risk scores and resource
 constraints are shelved. From FYs 2001 through 2004, 5.1 million TDI tax modules


 1
   A TDA is a balance-due case of a taxpayer.
 2
   A TDI is a case for an unfiled tax return of a taxpayer.
 3
   Shelved cases are TDAs or TDIs that have been taken out of Collection function inventory because they are lower
 priority than other available cases.
 4
   The Queue is an automated holding file for unassigned inventory. Inventory is placed in the Queue until it can be
 assigned as workload for Collection function employees or shelved due to lack of resources.
                     High-Risk Work Is Selected From the Unassigned Delinquent
                      Account Inventory, but Some Unassigned Accounts Need
                                      Management’s Attention


(2.6 million taxpayers) meeting our overall criteria were shelved. During the same time,
1.8 million TDA tax modules (934,000 taxpayers) with balances due totaling $7.8 billion were
shelved. A significant number of noncompliant taxpayers with shelved cases will never be
contacted to resolve collection-related issues other than through routine notices mailed to them.
Our review of accounts in the Queue and shelved accounts did not identify any large groups of
high-risk inventory that are not being identified for assignment to Collection function personnel.
Almost 81 percent of the business cases in the Queue involve trust fund tax5 cases that are
higher-priority workload. Conversely, almost 96 percent of the trust fund taxpayers that have
shelved TDAs would not be identified as a high-risk case based on the total amount owed by the
taxpayers. However, some Queue and shelved accounts warrant attention by the Collection
function.
Some older6 TDAs are maintained in the Queue. Just over 10 percent of the taxpayers have tax
modules that have been in the Queue for at least 1 year, 3.5 percent have tax modules in the
Queue for at least 2 years. With a constant flow of new workload to the Queue and limited field
resources, it is unlikely cases that have aged in the Queue will ever be assigned for contact,
especially if they do not meet another high-priority criterion.
In addition, many TDAs that have been shelved do not have Federal tax liens filed to protect the
Federal Government’s interest. Almost 200,000 taxpayers with balances due of $5,000 and over
owe $5.1 billion, only $2.3 billion of which is protected by a lien. We raised this issue in a
report dated June 20027 and recommended that the Commissioners Small Business/Self-
Employed (SB/SE) and Wage and Investment Divisions develop a more uniform lien-filing
policy to better protect the Federal Government’s interest. The IRS agreed and included the
issue in a research project. The project is not yet complete and the lien-filing policy on shelved
accounts is pending the outcome of the project. However, while our review was ongoing, the
IRS made changes in workload-selection criteria that should result in liens being filed on
additional large-dollar TDAs.
The IRS shelved some TDIs without securing tax returns even though the taxpayers made large
payments toward potential tax liabilities. More than 55,000 TDI tax modules that have a credit
balance8 of at least $5,000 were shelved in the last few years. About 800 of these tax modules
had credit balances greater than $100,000. The credit balances, especially the larger ones, are an


5
  Trust fund taxes are employment taxes that are collected by employers from employees’ wages and later deposited
with the Federal Government.
6
  Generally, lower priority cases are removed from the Queue after 52 weeks unless they meet certain criteria.
7
  The Internal Revenue Service Should Modify Its Federal Tax Lien Practices to Treat Taxpayers More Equitably
and Better Protect the Government’s Interest (Reference Number 2002-30-106, dated June 2002).
8
  A credit balance on an unfiled tax return can be created when the taxpayer makes estimated payments for a
potential tax liability, applies overpayments from other tax periods, makes a tax deposit when requesting an
extension of time for filing a tax return, etc.
                                                                                                                2
                  High-Risk Work Is Selected From the Unassigned Delinquent
                   Account Inventory, but Some Unassigned Accounts Need
                                   Management’s Attention


indication that the taxpayers expected to have taxable income or owe trust fund taxes for the
year.

Recommendations
We recommended the Commissioner, SB/SE Division, ensure the Collection function continues
to review the program that removes older cases from the Queue, establish lien-filing policies for
shelved accounts, and include credit balances as a selection criterion for TDIs.

Response
The Commissioner, SB/SE Division, agreed with our recommendations. The Collection function
will continue to review the automated program and has already identified several enhancements.
Research project results will be used to determine and implement appropriate interim policy
changes for lien filing. In addition, changes were requested to various automated systems to
include credit balance amounts in the risk-based methodology. Management’s complete
response to the draft report is included as Appendix VIII.
Copies of this report are also being sent to IRS officials who are affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Curtis W. Hagan, Assistant Inspector General for Audit (Small Business and Corporate
Programs), at (202) 622-3837.




                                                                                                    3
                         High-Risk Work Is Selected From the Unassigned Delinquent
                          Account Inventory, but Some Unassigned Accounts Need
                                          Management’s Attention




                                              Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 3
          High-Risk Inventory Is Being Identified for Assignment to
          Collection Function Personnel......................................................................Page 3
          Some Older Taxpayer Delinquent Accounts Maintained in the Queue
          Are Not Likely to Be Assigned to Collection Function Personnel...............Page 4
                     Recommendation 1:..........................................................Page 5

          Many Shelved Taxpayer Delinquent Accounts With Large Balance-Due
          Amounts Do Not Have Liens Filed to Protect the Federal Government’s
          Interest...........................................................................................................Page 5
                     Recommendation 2:..........................................................Page 8

          Some Taxpayer Delinquency Investigations Were Shelved Without
          Securing Tax Returns Even Though the Taxpayers Made Large
          Payments Toward Potential Tax Liabilities..................................................Page 8
                     Recommendation 3:........................................................Page 10


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 11
          Appendix II – Major Contributors to This Report ........................................Page 13
          Appendix III – Report Distribution List .......................................................Page 14
          Appendix IV – Glossary of Terms................................................................Page 15
          Appendix V – Detailed Figures of Statistical Information ...........................Page 18
          Appendix VI – Lien Filing on Shelved Accounts.........................................Page 24
          Appendix VII – Credit Balance Taxpayer Delinquency Investigations .......Page 25
          Appendix VIII – Management’s Response to the Draft Report ...................Page 27
                     High-Risk Work Is Selected From the Unassigned Delinquent
                      Account Inventory, but Some Unassigned Accounts Need
                                      Management’s Attention




                                             Background

Taxpayers that have not filed their tax returns or paid the full amount due on tax returns are not
in compliance with Federal tax laws. The Internal Revenue Service (IRS) attempts to notify
these taxpayers of their noncompliance through a combination of methods. At a minimum, this
consists of routine notices sent to them through the mail. However, it can also include a
telephone call and/or an in-person (field) contact. Since the Collection function is unable to
work all inventory receipts with existing personnel, Taxpayer Delinquency Investigations (TDI)
and Taxpayer Delinquent Accounts (TDA) are prioritized using risk scores. The risk scores are
based upon a number of factors including the type of tax and amount owed. Workload is to be
assigned for a telephone call and/or field contact based on the priorities. See Appendix IV for a
Glossary of Terms.
The Collection function maintains an inventory of unassigned TDIs and TDAs in the Queue.
The Queue inventory comes from many sources. Most of the Queue inventory is from either
cases that have been assigned to Automated Collection System (ACS) personnel and not fully
resolved or cases that bypass the ACS and go directly to the Queue when the delinquency was
not resolved by routine notices mailed to the taxpayer.
The Queue inventory consists of prioritized cases that are not currently assigned to the Collection
function and cases that will not be assigned due in part to resource constraints. These cases are
mainly available for assignment to Collection Field function (CFf) personnel for
in-person contact with the taxpayer. However, the cases can also be assigned to ACS personnel
for contact by telephone. As of April 18, 2005, there were 2.2 million TDI tax modules
(tax periods) for 740,199 taxpayers in the Queue inventory. Also in the Queue, there were
2.1 million TDA tax modules for 633,602 taxpayers who had balance-due amounts totaling
$23.3 billion. This represents a slight decrease for TDIs from the inventory at the end of Fiscal
Year (FY) 2004, while the volume of TDAs was relatively unchanged. See Appendix V,
Figure 1, for an overview of trends in Queue tax module inventory by fiscal year.1
TDIs and TDAs that are not likely to be assigned because of low risk scores and resource
constraints are shelved (removed from inventory). From FYs 2001 through 2004, 5.1 million
TDI tax modules (2.6 million taxpayers) meeting our overall criteria (see Appendix I for criteria)
were shelved. During the same time, 1.8 million TDA tax modules (934,000 taxpayers) with
balances due totaling $7.8 billion were shelved. A significant number of noncompliant taxpayers
with shelved cases will never be contacted to resolve collection-related issues other than through
routine notices mailed to them.

1
 Many of the calculations throughout the report are affected by rounding. All initial calculations were performed
using the actual numbers rather than the rounded numbers that appear in the report.
                                                                                                            Page 1
                  High-Risk Work Is Selected From the Unassigned Delinquent
                   Account Inventory, but Some Unassigned Accounts Need
                                   Management’s Attention



This review was performed at the Small Business/Self-Employed (SB/SE) Division National
Headquarters in New Carrollton, Maryland, in the Office of the Director, Collection, during the
period October 2004 through October 2005. The audit was conducted in accordance with
Government Auditing Standards. Detailed information on our audit objective, scope, and
methodology is presented in Appendix I. Major contributors to the report are listed in
Appendix II.




                                                                                          Page 2
                  High-Risk Work Is Selected From the Unassigned Delinquent
                   Account Inventory, but Some Unassigned Accounts Need
                                   Management’s Attention




                                 Results of Review

High-Risk Inventory Is Being Identified for Assignment to Collection
Function Personnel
Our review of accounts in the Queue and shelved accounts did not identify any large groups of
high-risk inventory that are not being identified for assignment to Collection function personnel.
During FY 2001, the Collection function conducted reengineering projects to identify ways to
make the function more efficient. The Queue inventory was studied at that time, and new
risk-score and workload-prioritization criteria were implemented. As a result, collecting trust
fund taxes became an even greater priority for CFf personnel. In addition, the Collection
function implemented a last-in/first-out method for assigning these cases to prevent additional
accumulation of unpaid taxes on subsequent tax periods. Prompt attention to trust fund taxes is
necessary because these tax returns are due quarterly and tax deposits even more frequently.
Almost 94 percent of the Business Master File (BMF) TDA Queue inventory involves
employment tax cases (see Appendix V, Figure 4) and about 81 percent specifically involves
trust fund tax cases. As a result of the large percentage of trust fund tax accounts, approximately
67 percent of the BMF TDAs in the Queue inventory are rated as high risk by the workload
prioritization process (Appendix V, Figure 6). Likewise, a large portion of the BMF TDI Queue
inventory involves employment tax cases, resulting in a large percentage of high-risk TDI
inventory being available for assignment (Appendix V, Figures 8 and 10).
We also determined that few high-priority TDAs are being shelved (Appendix V, Figures 14 and
15). Almost 99 percent of the Individual Master File (IMF) and 96 percent of the BMF trust
fund taxpayers that have shelved TDAs would not be identified as a high-risk case for field
assignment based on the total amount owed by the taxpayers. While the TDIs do receive a risk
code score, the score is not available on the Master File. Therefore, we were unable to obtain
risk levels for the closed TDIs.
Although high-risk work is selected from unassigned delinquent account inventories, some
Queue and shelved accounts need Collection function attention:
   •   Some older TDAs maintained in the Queue are not likely to be assigned to Collection
       function personnel.
   •   Many shelved TDAs with large balance-due amounts do not have liens filed to protect the
       Federal Government’s interest.
   •   Some TDIs were shelved without securing tax returns even though the taxpayers made
       large payments toward potential tax liabilities.
                                                                                            Page 3
                  High-Risk Work Is Selected From the Unassigned Delinquent
                   Account Inventory, but Some Unassigned Accounts Need
                                   Management’s Attention



While our review was ongoing, the IRS took a corporate look at Collection function inventory
and made some recommendations that are in various stages of implementation. These could
have a positive impact on issues discussed in this report, especially on TDAs with large
balance-due amounts. In addition, a Collection Governance Council has been formed that will
continue to look at ways to better manage Collection function inventory and workload.
Additional information regarding the concerns mentioned above and actions the IRS is taking
based on these initiatives follows.

Some Older Taxpayer Delinquent Accounts Maintained in the Queue
Are Not Likely to Be Assigned to Collection Function Personnel
An automated process is in place that, in general, should shelve lower-priority cases from the
Queue after 52 weeks unless the cases meet other specific criteria. The CFf criteria for
assignment of cases from the Queue are based on the age and type of delinquency. Cases are
assigned based on a last-in/first-out methodology. This policy coincides with the long-held
belief that collection potential diminishes as a case ages. In addition, the policy is to enable
personnel to resolve existing delinquencies before additional delinquencies arise. With a
constant flow of new workload to the Queue and limited resources, it is unlikely that older cases
in the Queue will ever be assigned for contact, especially if they do not meet another
high-priority criterion.
While 82 percent of the Queue TDAs (90 percent of the taxpayers) had at least 1 tax module for
the taxpayer that was less than 1 year old (Appendix V, Figure 2), a significant number were
more than 1 year old. Figure 1 shows the results of our analysis of the Queue inventory as of
April 18, 2005. Tax modules with balances due totaling more than $3.9 billion have been in the
Queue for more than 1 year and more than $1.6 billion in balances due has been in the Queue
longer than 2 years. The IMF data were not limited by type of tax, but the BMF data includes
only trust fund taxes.




                                                                                           Page 4
                    High-Risk Work Is Selected From the Unassigned Delinquent
                     Account Inventory, but Some Unassigned Accounts Need
                                     Management’s Attention



                                  Figure 1: Age of Queue Inventory

                           In the Queue at Least 1 Year                       In the Queue at Least 2 Years
                     IMF              BMF                 Total           IMF             BMF             Total

 Taxpayers              32,025           58,333              90,358          13,519         17,350             30,869
 Percentage of
 Taxpayers                 6.2%           15.8%              10.2%              2.6%          4.7%              3.5%
 Tax Modules           120,679          207,088             327,767          47,334         64,611            111,945
 Percentage of
 Tax Modules             11.7%            25.0%              17.6%              4.6%          7.8%              6.0%
 Balance Due     $2,600,244,815   $1,361,932,950   $3,962,177,765     $1,190,927,427   $419,561,846   $1,610,489,273
Source: Treasury Inspector General for Tax Administration (TIGTA) analysis of Queue data.

As previously mentioned, a portion of the risk-level criteria includes the amount of tax owed.
This is based on the amount owed per tax module and the total balance owed by the taxpayer.
Based on the total balance due amount for the taxpayer, almost 64 percent of the taxpayers with
accounts in the Queue more than 1 year and just over 62 percent of the taxpayers with accounts
in the Queue more than 2 years would not be considered high risk.
By removing older cases from the Queue inventory that will not be assigned to Collection
function personnel, management will have a better understanding of the makeup of the Queue
and better information for inventory decisions.

Recommendation
Recommendation 1: The Commissioner, SB/SE Division, should ensure the Collection
function staff continues to review the program for the automated process that removes cases
from the Queue to ensure that it is operating properly.
        Management’s Response: The SB/SE Division Collection function will continue to
        review the automated programming. The Commissioner, SB/SE Division, noted that
        several enhancements have already been identified.

Many Shelved Taxpayer Delinquent Accounts With Large Balance-Due
Amounts Do Not Have Liens Filed to Protect the Federal
Government’s Interest
A Notice of Federal Tax Lien is recorded in the County or State in which the taxpayer has
property. This protects the Federal Government’s interest by publicly recording the debt owed
by the taxpayer as a notice to possible future creditors. The lien attaches to property currently
owned and to property the taxpayer may acquire in the future. Therefore, a lien may be filed
even though specific assets have not been identified. The IRS generally requires employees to
                                                                                                              Page 5
                       High-Risk Work Is Selected From the Unassigned Delinquent
                        Account Inventory, but Some Unassigned Accounts Need
                                        Management’s Attention



consider filing tax liens on assigned accounts when taxpayers owe $5,000 or more. Some
exceptions include taxpayers in bankruptcy, out-of-business corporations, deceased taxpayers
without assets, and other miscellaneous categories.
As Figure 2 shows, over 1.5 million tax modules (balances due totaling $6.2 billion) for
798,783 taxpayers were shelved between October 1, 2000 and September 30, 2004. Only
$2.4 billion (38 percent) of the total amount due was protected by Federal tax liens. The
percentage of shelved accounts protected with liens filed remained relatively constant for the
4 years. For accounts with a balance due of greater than $5,000, only $2.3 billion (45 percent)
was protected by liens. Federal tax liens were filed for only 46 percent of the larger
balance-due accounts (greater than $1 million).
For this analysis, we excluded some shelved tax modules that may have limited collection and/or
lien potential.2 The IMF tax modules include only those taxpayers that were alive (no date of
death on the Master File) and between 20 and 65 years old. BMF tax modules exclude estates
and include only those businesses that did not have a business-closed date entered on the
Master File.
                  Figure 2: Shelved TDA Tax Modules and Taxpayer Accounts3

     Balance-Due         Tax                              Total Amount        Amount Due With          Percentage
       Amount           Modules         Taxpayers              Due                Liens                Protected
    Total Shelved         1,544,375          798,783           $6.2 Billion         $2.4 Billion           38.05%
    $5,000 and
    Over                    603,671          197,337           $5.1 Billion         $2.3 Billion           45.10%
    $25,000 and
    Over                    212,838           54,277           $3.5 Billion         $1.6 Billion           45.19%
    $50,000 and
    Over                     84,441           19,665           $2.3 Billion         $1.0 Billion           44.08%
    $100,000 and
    Over                     27,272            5,741           $1.4 Billion        $619 Million            44.09%
    $500,000 and
    Over                      2,184              425          $441 Million         $201 Million            45.51%
    $1 Million and
    Over                        590              123          $231 Million         $106 Million            46.12%
Source: TIGTA analysis of Master File data.

Various TIGTA audit reports have been issued since August 2000 regarding the use of liens on
accounts not in active collection status. In June 2002, we recommended that the Commissioners,


2
    This is criteria we defined during our review, not IRS criteria.
3
    Appendix VI, Figures 1 and 2, separate the information contained in Figure 2 by the IMF and BMF.
                                                                                                            Page 6
                    High-Risk Work Is Selected From the Unassigned Delinquent
                     Account Inventory, but Some Unassigned Accounts Need
                                     Management’s Attention



SB/SE and Wage and Investment Divisions, develop a more uniform lien-filing policy to better
protect the Federal Government’s interest and to provide more consistent treatment of taxpayers.4
This recommendation included shelved TDAs. The IRS agreed and responded that these
lien-filing issues would be included in existing SB/SE Research Division projects. The project
studying lien filing on shelved accounts has been extended and is not expected to be completed
until May 2006. The IRS lien-filing policy on shelved accounts is pending the outcome of the
project.
The Research Division project is tracking the impact of liens on shelved accounts for 1 year after
the lien filing. This time period may be too short to capture the full impact of the liens since a
lien remains in effect until the liability is satisfied, the liability becomes unenforceable by lapse
of time, or a bond is accepted in the amount of the liability. In addition, the project includes only
those accounts closed based on a part of the IRS’ reengineered case-selection process and not
those closed solely due to resource constraints. Many cases mentioned here were shelved due to
resource constraints rather than through the case-selection process.
In addition, several of the recommendations from the IRS review of Collection function
inventory should result in liens being filed on additional large balance-due cases. The
recommendations included revising the TDA assignment criteria for large-dollar assessments.
As a result, additional large-dollar cases should be assigned to both the ACS and CFf.
Employees will be required to consider filing liens on these large-dollar cases based on existing
IRS policy.
To further analyze these cases and obtain updated information on the shelved TDAs, we
performed Integrated Data Retrieval System (IDRS) research on 50 IMF and 50 BMF (excluding
estate) tax modules. We selected tax modules that had the largest balance-due amounts. We
determined that:
    •   Twelve of the 100 modules did not currently warrant additional collection activity due to
        activity on the accounts since our data were obtained. In these cases the account is now
        fully paid or payments are currently posting, an Offer in Compromise was accepted or is
        pending, the taxpayer is bankrupt, the case was closed as hardship, or the shelving was
        reversed.
    •   Seven of the remaining 88 modules were never assigned to the ACS or CFf and would
        not have been subject to a lien-filing determination.5
    •   Forty-eight of the 88 modules did not have an indication of lien filing. The balance due
        on these tax modules totaled $28.7 million, an average of $599,000 per tax module.


4
  The Internal Revenue Service Should Modify Its Federal Tax Lien Practices to Treat Taxpayers More Equitably
and Better Protect the Government’s Interest (Reference Number 2002-30-106, dated June 2002).
5
  The 3 bullets for the 88 tax modules are not mutually exclusive.
                                                                                                        Page 7
                     High-Risk Work Is Selected From the Unassigned Delinquent
                      Account Inventory, but Some Unassigned Accounts Need
                                      Management’s Attention



        ¾ Nine of 15 shelved IMF tax modules without a lien had a balance due because the
          IRS prepared a substitute for return (SFR) for the taxpayer.
    •   Seventy-two of the 88 modules have current filing requirements shown on the Master
        File.
Based on our research, we conclude that a significant number of shelved balance-due accounts
warrant lien consideration to protect the Federal Government’s interest. In addition, a lien would
provide a viable incentive for taxpayers to arrange to pay their outstanding tax liabilities.

Recommendation
Recommendation 2: The Commissioner, SB/SE Division, should consider expanding the
lien-filing Research Division project to capture the impact of lien filing past the initial 1-year
period and establish a lien policy for shelved accounts based on the results. However, an interim
policy should be implemented based on the project results at the end of the initial 1-year test
period. In protecting the Federal Government’s interest through lien filing, the policy should
take into account the dollar value of the accounts and should include accounts already shelved
and those that will be shelved in the future.
        Management’s Response: The SB/SE Division Collection function will determine
        and implement any appropriate interim policy changes based on the data. In addition, the
        research project has been extended to capture the impact of lien filing for an additional
        year.

Some Taxpayer Delinquency Investigations Were Shelved Without
Securing Tax Returns Even Though the Taxpayers Made Large
Payments Toward Potential Tax Liabilities
More than 55,000 TDI tax modules for 37,813 taxpayers that had a credit balance of at least
$5,000 were shelved in the last few years. Almost 800 of these tax modules had credit balances
greater than $100,000. Figure 3 stratifies tax modules by amount where the taxpayer had not
filed the tax return, there was a credit balance6 on the tax module, and the tax module was
shelved between October 1, 2000 and September 30, 2004. The IMF portion includes only those
taxpayers that were alive and between 20 and 65 years old. The BMF portion includes only
those taxpayers that did not have a business-closed date entered on the Master File.7



6
  A credit balance on an unfiled tax return can be created when the taxpayer makes estimated payments for a
potential tax liability, applies overpayments from other tax periods, makes a tax deposit when requesting an
extension of time for filing a tax return, etc.
7
  This is criteria we defined during our review, not IRS criteria.
                                                                                                               Page 8
                       High-Risk Work Is Selected From the Unassigned Delinquent
                        Account Inventory, but Some Unassigned Accounts Need
                                        Management’s Attention



                   Figure 3: TDI Tax Modules Shelved With Credit Balances8

                  TDIs Shelved                            Total Modules          Total Taxpayers
                  Overall Total                                    4,536,418             2,414,385
                  Total With Credit Balance                          379,063               254,128
                  $5,000 and Over Credit                              55,490                37,813
                  $25,000 and Over Credit                              5,937                  4,472
                  $50,000 and Over Credit                              2,174                  1,703
                  $100,000 and Over Credit                                797                  655
                  $500,000 and Over Credit                                 56                    56
                  $1 Million and Over Credit                               17                    17
                Source: TIGTA analysis of Master File data.

To further analyze and obtain updated information on shelved TDIs with a credit balance on the
tax module, we performed IDRS research on 50 IMF and 50 BMF tax modules. We selected tax
modules that had the largest credit balance amounts. We determined that:
      •    Forty-six (16 IMF and 30 BMF) of the 100 modules did not currently warrant additional
           collection activity to secure a tax return. On these cases, a tax return was filed, a SFR
           was prepared, the credit was refunded or transferred to another tax module, or the
           taxpayer no longer had a filing requirement.
      •    Fifty-four (34 IMF and 20 BMF) of the 100 modules could warrant additional collection
           activity to secure a tax return. The taxpayers have current filing requirements on the
           Master File and credit balances on the tax modules range from approximately $333,000
           to $3 million. Of the 20 BMF tax modules, 13 are for employment taxes with credit
           balances ranging from approximately $333,000 to $2.4 million.
The credit balance amounts were primarily the result of tax deposits made during the tax year
and amounts paid when the taxpayer requested an extension of time to file. One requirement for
extensions of time to file is that the tax must be fully paid to avoid the assessment of interest and
penalties. This is an additional indication that the taxpayer expected to have taxable income or
owe trust fund taxes, especially since the extension requests are filed after the end of the tax
year.
The IRS does not currently have a policy specifically for credit balance TDIs. The IRS selects
TDIs for assignment using criteria that have traditionally been based on income and projected
balance-due amounts. In addition, a TDI can be assigned as part of a TDA meeting the
balance-due assignment criteria. Although credit-balance TDIs may not meet these criteria, they

8
    Appendix VII, Figures 1 and 2, separate the information contained in Figure 3 by the IMF and BMF.
                                                                                                        Page 9
                  High-Risk Work Is Selected From the Unassigned Delinquent
                   Account Inventory, but Some Unassigned Accounts Need
                                   Management’s Attention



present a good indication of noncompliance with tax return filing requirements based on
payments the taxpayer submitted to the IRS. If these TDIs are not resolved, the taxpayers could
become noncompliant on additional tax periods. In addition, the taxpayers may not have
sufficient credits with which to satisfy the tax liabilities of the unfiled tax returns.

Recommendation
Recommendation 3: The Commissioner, SB/SE Division, should include credit-balance
amounts as a TDI selection criterion to bring taxpayers into filing compliance. This criterion
could include the size of the credit and current filing requirements shown on the Master File.
       Management’s Response: The SB/SE Division Collection function has requested
       changes to the various automated systems that are used for case routing and assignment
       prioritization in order to incorporate credit balance amounts in their risk-based
       methodology. Changes have been completed to some of the applications; however, this
       change still needs to be synchronized with other automated systems.




                                                                                          Page 10
                 High-Risk Work Is Selected From the Unassigned Delinquent
                  Account Inventory, but Some Unassigned Accounts Need
                                  Management’s Attention



                                                                                Appendix I

        Detailed Objective, Scope, and Methodology

The overall objective of this review was to evaluate and profile cases (Taxpayer Delinquent
Accounts (TDA) and Taxpayer Delinquency Investigations (TDI)) that either had been shelved
or that were in the Queue inventory. See Appendix IV for a Glossary of Terms.
To accomplish our objective, we:
I.     Determined if there have been any Internal Revenue Service (IRS) reviews of TDA and
       TDI inventories that are not actively worked, such as reviews conducted by the Research
       Divisions, the Small Business/Self-Employed (SB/SE) Division Headquarters Collection
       function, or the Office of Program Evaluation and Risk Analysis.
       A. Obtained and analyzed the results of any IRS reviews.
       B. Determined if additional reviews/studies are planned.
II.    Determined the characteristics of TDAs and TDIs that have been shelved or put in the
       Queue.
       A. Obtained the following data:
          1. A Queue electronic Delinquent Investigation/Account Listing as of April 18,
             2005, from SB/SE Division Headquarters staff. We did not validate the accuracy
             of this data other than to ensure that our record count matched the record count
             provided by the SB/SE Division staff. The output for TDAs consisted of
             1,031,264 Individual Master File (IMF) and 1,104,242 Business Master File
             (BMF) tax modules for 343,392 IMF and 290,210 BMF taxpayers. The output for
             TDIs consisted of 520,482 IMF and 1,665,411 BMF tax modules for 325,117 IMF
             and 415,082 BMF taxpayers.
          2. Downloads from the Master File of:
              a) TDIs closed with Transaction Code (TC) 597 (Surveyed) or 598 (Shelved)
                 dated between October 1, 2000, and September 30, 2004, that were not
                 subsequently reversed or did not have a subsequent return posting (TC 150).
                 The output consisted of 4,407,353 IMF and 15,793,365 BMF tax modules for
                 2,615,017 IMF and 6,278,294 BMF taxpayers. We verified the accuracy of
                 the criteria in the download program by researching a judgmental sample of
                 87 accounts on the Integrated Data Retrieval System (IDRS).



                                                                                       Page 11
          High-Risk Work Is Selected From the Unassigned Delinquent
           Account Inventory, but Some Unassigned Accounts Need
                           Management’s Attention



       b) TDAs closed with TC 530 (Currently Not Collectible), Closing Code 39
          (TDAs closed due to low risk scores or resource constraints) dated between
          October 1, 2000, and September 30, 2004, that were not subsequently
          reversed and for which there was still a balance due and a Collection Statute
          Expiration Date later than September 30, 2004. The output consisted of
          1,217,708 IMF and 565,411 BMF tax modules for 643,226 IMF and
          290,342 BMF taxpayers. We verified the accuracy of the criteria in the
          download program by researching a judgmental sample of 199 accounts on
          the IDRS.
B. Ran queries to profile the data. Some characteristics considered included taxpayer
   age, type of taxpayer, dollars per module, dollars per taxpayer, modules per taxpayer,
   and repeater status of the taxpayer. We ran queries against data files containing all of
   the data meeting the criteria shown in Step II. A., not sample data.
C. Analyzed the query results to determine whether inventory priorities should be
   changed based on cases shelved or in the Queue.
   1. Performed additional research on 100 shelved TDA and 100 shelved TDI tax
      modules using the IDRS to validate the results of our query analysis. These were
      judgmental samples. We selected tax modules with the largest balance-due
      amounts for 50 IMF and 50 BMF shelved TDAs. For the shelved TDIs, we
      selected 50 IMF and 50 BMF TDI tax modules with the largest credit balances.




                                                                                    Page 12
                 High-Risk Work Is Selected From the Unassigned Delinquent
                  Account Inventory, but Some Unassigned Accounts Need
                                  Management’s Attention



                                                                              Appendix II

                 Major Contributors to This Report

Curtis W. Hagan, Assistant Inspector General for Audit (Small Business and Corporate
Programs)
Parker F. Pearson, Director
Amy L. Coleman, Audit Manager
Joseph P. Snyder, Senior Auditor
Denise M. Gladson, Auditor




                                                                                       Page 13
                High-Risk Work Is Selected From the Unassigned Delinquent
                 Account Inventory, but Some Unassigned Accounts Need
                                 Management’s Attention



                                                                           Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Small Business/Self-Employed Division SE:S
Director, Collection, Small Business/Self-Employed Division SE:S:C
Director, Collection Policy, Small Business/Self-Employed Division SE:S:C:CP
Director, Planning and Analysis, Small Business/Self-Employed Division SE:S:C:PA
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Management Controls OS:CFO:AR:M
Audit Liaison: Commissioner, Small Business/Self-Employed Division SE:S




                                                                                   Page 14
                  High-Risk Work Is Selected From the Unassigned Delinquent
                   Account Inventory, but Some Unassigned Accounts Need
                                   Management’s Attention



                                                                                Appendix IV

                                Glossary of Terms

Automated Collection System (ACS) – A telephone contact system through which telephone
assistors collect unpaid taxes and secure tax returns from delinquent taxpayers who have not
complied with previous notices.
Business Master File (BMF) – The Internal Revenue Service (IRS) database that consists of
Federal tax-related transactions and accounts for businesses. These include employment taxes,
income taxes on businesses, and excise taxes.
Campus – The data processing arm of the IRS. The campuses process paper and electronic
submissions, correct errors, and forward data to the Computing Centers for analysis and posting
to taxpayers accounts. They were formerly known as service centers.
Collection Field function (CFf) – The unit in the Area Offices consisting of Revenue Officers
who handle personal contacts with taxpayers to collect delinquent accounts or secure unfiled tax
returns.
Collection Statute Expiration Date – A time period established by law to collect taxes.
Computing Center – IRS Computing Centers support tax processing and information
management through a data processing and telecommunications infrastructure.
Contact – A communication with the taxpayer to secure a tax return that is past due or payment
on a balance-due account. Contacts can be made via notices mailed to the taxpayer, via
telephone, or in person.
Corporate Income Tax Returns – U.S. Corporation Income Tax Returns (Form 1120) are
returns used by corporations to report the corporate income tax.
Delinquent Investigation/Account Listing (DIAL) – An inventory list of Taxpayer Delinquent
Accounts and Taxpayer Delinquency Investigations placed in an assignment location such as the
Queue or a Collection function group.
Employment Tax Returns – Various Form 940 series returns (primarily Employer’s Annual
Federal Unemployment (FUTA) Tax Return (Form 940) and Employer’s Quarterly Federal Tax
Return (Form 941)) filed by businesses to report things such as Employer’s Federal
Unemployment Taxes and Federal Taxes Withheld.
Estate Tax Return – United States Estate (and Generation-Skipping Transfer) Tax Return
(Form 706) is the form to be filed on certain estates of deceased persons.



                                                                                          Page 15
                  High-Risk Work Is Selected From the Unassigned Delinquent
                   Account Inventory, but Some Unassigned Accounts Need
                                   Management’s Attention



Individual Income Tax Returns – U.S. Individual Income Tax Returns (Form 1040 series) are
annual income tax returns filed by citizens or residents of the United States.
Individual Master File (IMF) – The IRS database that maintains transactions or records of
individual tax accounts.
Integrated Data Retrieval System (IDRS) – The IRS computer system capable of retrieving or
updating stored information; it works in conjunction with taxpayer account records.
Hardship Closing – A method of closing an account as currently not collectible with a future
income dollar amount that will trigger reactivation of the case if the taxpayer reports income of
the amount or greater.
Master File – The IRS database that stores various types of taxpayer account information. This
database includes individual, business, and employee plans and exempt organizations data.
Offer in Compromise (OIC) – An offer submitted by the taxpayer to satisfy a tax liability when
he or she does not have the financial means to satisfy the liability or when there is doubt as to the
validity of the liability.
Queue – An automated holding file for unassigned inventory. Inventory is placed in the Queue
until it can be assigned as workload for Collection function employees or shelved due to lack of
resources.
Revenue Officer – Employees in the CFf who attempt to contact taxpayers and resolve
collection matters that have not been resolved through notices sent by the IRS campuses or the
ACS.
Shelved or Surveyed Cases – These are delinquent unpaid accounts or investigations of unfiled
tax returns that have been taken out of Collection function inventory because they are lower
priority than other available cases.
Substitute for Return – A tax return prepared by the IRS for a taxpayer, who did not file a tax
return on his or her own, based on income information documents provided to the IRS by parties
such as employers and financial institutions.
Taxpayer Delinquent Account (TDA) – A balance-due case of a taxpayer.
Taxpayer Delinquency Investigation (TDI) – A case for an unfiled tax return of a taxpayer.
Tax Module (Period) – The term tax module refers to each tax return filed by the taxpayer for a
specific period (year or quarter) during a calendar year for each type of tax.
Trust Fund Recovery Penalty (TFRP) - A penalty, applicable to withheld income and
employment (social security and railroad retirement) taxes or collected excise taxes, that is
assessed against responsible individuals of a business when the business has failed to collect or
pay over those taxes to the Federal Government.


                                                                                             Page 16
                High-Risk Work Is Selected From the Unassigned Delinquent
                 Account Inventory, but Some Unassigned Accounts Need
                                 Management’s Attention



Trust Fund Taxes – Employment taxes that are collected by employers from employees’ wages
and later deposited with the Federal Government.




                                                                                  Page 17
                       High-Risk Work Is Selected From the Unassigned Delinquent
                        Account Inventory, but Some Unassigned Accounts Need
                                        Management’s Attention



                                                                                                        Appendix V

            Detailed Figures of Statistical Information                                                       1




Figure 1 – Number of Delinquent Accounts (Modules) in the Queue Each Year...Page 19
Figure 2 – Individual Master File (IMF) and Business Master File
          (BMF) TDA Queue Inventory by Age ....................................................Page 19
Figures 3 and 4 – IMF and BMF TDA Queue Inventory by Type of Tax ............. Page 20
Figures 5 and 6 – IMF and BMF TDA Queue Inventory by Risk Code .................Page 20
Figures 7 and 8 – IMF and BMF TDI Queue Inventory by Type of Tax ................Page 21
Figures 9 and 10 – IMF and BMF TDI Queue Inventory by Risk Code .................Page 21
Figure 11 – TDA and TDI Inventory Shelved Each Year .......................................Page 22
Figures 12 and 13 – IMF and BMF TDA Shelved Inventory by Type of Tax ........Page 22
Figures 14 and 15 – IMF and BMF Trust Fund TDA Shelved Inventory
                    by Risk Code ...........................................................................Page 23
Figures 16 and 17 – IMF and BMF TDA Shelved Tax Modules by Source ...........Page 23




See Appendix IV for a Glossary of Terms.




1
 Many of the calculations throughout this Appendix are affected by rounding. All initial calculations were
performed using the actual numbers rather than the rounded numbers that appear in the report.

                                                                                                                  Page 18
                         High-Risk Work Is Selected From the Unassigned Delinquent
                          Account Inventory, but Some Unassigned Accounts Need
                                          Management’s Attention


Figure 1. Number of Delinquent Accounts (Modules) in the Queue Each Year. The Taxpayer
Delinquent Account (TDA) Queue inventory has been increasing during the last few years. This can be
partially attributed to a change in the case-selection method for Revenue Officers; cases are assigned to
the Queue before assignment to Revenue Officers. The volume of Taxpayer Delinquency
Investigations (TDI) Queue inventory has increased slightly since Fiscal Year (FY) 2001. In addition, a
large number of TDIs is shelved each year (see Figure 11).
                                            TDA Tax Modules                              TDI Tax Modules
 8,000,000

                                                                                 7,023,839
 7,000,000


 6,000,000
                                                                 5,261,673
 5,000,000


 4,000,000

                                                                                                                                2,882,661      2,538,172
 3,000,000
                                                                                                                2,454,251
                                                 2,308,131                                       2,271,575
                                    1,937,592                                                                                           2,128,510
                                                                                                                            1,958,001
 2,000,000        1,578,227
                                                                             1,532,682       1,722,662       1,689,212
                                           933,715           1,197,963
                          993,121
 1,000,000   754,983


        0
               FY 96          FY 97             FY 98            FY 99          FY 00           FY 01          FY 02           FY 03          FY 04

Source: Collection Reports 5000-2 and 5000-4.
Figure 2. Individual Master File (IMF) and Business Master File (BMF) TDA Queue Inventory by
Age. Almost 94 percent of all Queue TDAs (just over 95 percent of the IMF inventory and 92 percent of
the BMF Trust Fund inventory) were added after January 1, 2003, while 88 percent of the IMF and
75 percent of the BMF Trust Fund Queue inventories were added after January 1, 2004. Data for 2005
are through April 18.
                                                     Year Inventory Added to the Queue

 600,000


 500,000


 400,000                                                                                                                                              BMF


 300,000                                                                                                                                              IMF

 200,000


 100,000


        0
             Before 2000         2000                   2001             2002                2003              2004              2005

Source: Treasury Inspector General for Tax Administration (TIGTA) analysis of Internal Revenue Service (IRS)
Queue extract.




                                                                                                                                                    Page 19
                     High-Risk Work Is Selected From the Unassigned Delinquent
                      Account Inventory, but Some Unassigned Accounts Need
                                      Management’s Attention


Figures 3 and 4. IMF and BMF TDA Queue Inventory by Type of Tax. IMF TDAs in Queue inventory
are almost entirely individual income tax cases and BMF TDAs are almost entirely employment tax cases.
                  IMF Queue by Tax Type                                     BMF Queue by Tax Type

                                                                              2% 2% 2%
                    8%




                                                         Employment
    Form 1040                                                                                  94%
                                    92%                  Corporate Income
    TFRP                                                 Highway Use
                                                         Other


Source: TIGTA analysis of IRS Queue extract.


Figures 5 and 6. IMF and BMF TDA Queue Inventory by Risk Code. The Queue is a primary source
for Collection Field function (CFf) workload. The vast majority of the BMF Queue inventory is high
priority. This mainly consists of BMF trust fund cases (part of employment taxes).

                IMF Queue TDAs by Risk Code                                 BMF Queue TDAs by Risk Code

                                                                                  Low
                                                High
                                                                                 54,564
                                               229,918
   Low                                                    Medium
 433,618                                                  314,453




                                                                                                           High
                                              Medium
                                              367,728                                                     735,225
     High                                                    High
     Medium                                                  Medium
     Low                                                     Low



Source: TIGTA analysis of IRS Queue extract.




                                                                                                          Page 20
                       High-Risk Work Is Selected From the Unassigned Delinquent
                        Account Inventory, but Some Unassigned Accounts Need
                                        Management’s Attention


Figures 7 and 8. IMF and BMF TDI Queue Inventory by Type of Tax. All of the IMF Queue TDIs
involve individual income tax returns. A large percentage of the BMF Queue TDIs involve employment
taxes.
               IMF TDI Queue Inventory by Type of Tax                                          BMF TDI Queue Inventory by Type of Tax

                                                                                                                                        Employment
                                                                                                 Other                                  Corporate Income
                                                                                 Highway Use
                                                                                     3%          10%                                    Highway Use
                                                                            Corporate                                                   Other
                                                                             Income
                                                               Form 1040       14%




                         Form 1040
                           100%                                                                                        Employment
                                                                                                                         73%



Source: TIGTA analysis of IRS Queue extract.


Figures 9 and 10. IMF and BMF TDI Queue Inventory by Risk Code. A large percentage of the BMF
Queue TDI inventory is high risk.
                  IMF Queue TDIs by Risk Code                                                      BMF Queue TDIs by Risk Code

                                                                                                                                                High
                                                                                       Low
                                                    High                             303,842                                                    Medium
                                                   118,991                                                                                      Low




                                                                                                                                           High
      Low                                                    Medium                                                                       867,657
    322,049                                                  79,442        Medium
                                            High                           493,912
                                            Medium
                                            Low


Source: TIGTA analysis of IRS Queue extract.




                                                                                                                                                Page 21
                           High-Risk Work Is Selected From the Unassigned Delinquent
                            Account Inventory, but Some Unassigned Accounts Need
                                            Management’s Attention


Figure 11. TDA and TDI Inventory Shelved Each Year. Large volumes of both TDAs and TDIs are
shelved each year due to resource constraints. These cases can be removed from this inventory for
assignment, but most will never be worked. This inventory is largely low-priority workload.
                                                  TDAs                                                              TDIs

                                                                                                 7,038,500
 3,000,000



 2,500,000


                                                                       1,942,929
 2,000,000                                                                                                                                       1,853,950
                                                                                     1,720,683                     1,724,395
                                                                                                                                  1,653,148
                                                                                                        1,567,023
 1,500,000

                                                                                                                           1,089,580
                                                             937,204                                                                          1,020,503
 1,000,000                                                                   879,824
                                                         790,729



  500,000

                           3,705         13,702
             7,737
                     758           457            182
        0
                FY 96         FY 97         FY 98          FY 99            FY 00            FY 01                 FY 02          FY 03          FY 04

Source: Collection Reports 5000-2 and 5000-4.


Figures 12 and 13. IMF and BMF TDA Shelved Inventory by Type of Tax. While a large percentage
of the BMF shelved TDA inventory consists of employment taxes that include top-priority workload, the
majority is not considered high-risk inventory, as is shown in Figures 14 and 15.
                      IMF Shelved by Tax Type                                                                BMF Shelved by Tax Type

                                                                                                             12%
                            3%
                                                                                            6%
                                                                                    7%




                                                                                    Employment                                                       75%
                                                                                    Corporate Income
    Form 1040                      97%                                              Highway Use
    TFRP                                                                            Other


Source: TIGTA analysis of Master File extract of Transaction Code 530 (Currently Not Collectible), Closing
Code 39 (TDAs closed due to low risk scores or resource constraints), tax module data.




                                                                                                                                                     Page 22
                     High-Risk Work Is Selected From the Unassigned Delinquent
                      Account Inventory, but Some Unassigned Accounts Need
                                      Management’s Attention


Figures 14 and 15. IMF and BMF Trust Fund TDA Shelved Inventory by Risk Code. The vast
majority of the IMF and BMF trust fund TDA inventory shelved is lower priority workload.
                IMF TDAs Shelved by Risk Code                           BMF Trust Fund TDAs Shelved by Risk Code

                          High       Medium                                               High
                          1%          9%                                                  4%




                                                       High
                                                                                                                     High
                                                       Medium
                                                                                                                     Medium
                                                       Low



               Low
                                                                               Medium
               90%
                                                                                96%

Source: TIGTA analysis of Master File extract of Transaction Code 530, Closing Code 39, tax module data.


Figures 16 and 17. IMF and BMF TDA Shelved Tax Modules by Source. The vast majority of the IMF
and BMF TDA inventory is being shelved from the Queue.
              IMF Shelved Modules by Source                               BMF Shelved Modules by Source


                  Misc   CFf                                                    Misc     CFf
                  6%     1%                                                     3%       4%
                                                                                                              ACS
                                                ACS                                                           26%
                                                42%
                                                                                                                    CFf
                                                      CFf
   Queue                                                                                                            ACS
                                                      ACS
    51%                                                                                                             Queue
                                                      Queue     Queue
                                                                                                                    Misc
                                                      Misc       67%


Source: TIGTA analysis of Master File extract of Transaction Code 530, Closing Code 39, tax module data.




                                                                                                                    Page 23
                          High-Risk Work Is Selected From the Unassigned Delinquent
                           Account Inventory, but Some Unassigned Accounts Need
                                           Management’s Attention



                                                                                                    Appendix VI

                           Lien Filing on Shelved Accounts

Figure 1. Shelved Individual Master File (IMF) Taxpayer Delinquent Account (TDA) Tax Modules
and Taxpayer Accounts. The IMF data includes only those taxpayers that were alive (no date of death
entered on the Master File) and between 20 and 65 years old.1

       Balance-Due                                                                Amount Due With       Percentage
         Amount           Tax Modules    Taxpayers         Total Amount Due           Liens              Protected
    Total Shelved              980,303        509,666              $4.9 Billion          $2.1 Billion         42.66%
                      2
    $5,000 and Over            449,075        145,795              $4.3 Billion          $2.1 Billion         48.35%
    $25,000 and Over           186,281         47,801              $3.1 Billion          $1.4 Billion         46.18%
    $50,000 and Over            71,750         17,394              $2.0 Billion         $907 Million          44.42%
    $100,000 and Over           21,730          5,096              $1.2 Billion         $533 Million          43.58%
    $500,000 and Over            1,552               356          $368 Million          $163 Million          44.38%
    $1 Million and
    Over                           397               100          $190 Million           $85 Million          44.49%

Source: Treasury Inspector General for Tax Administration (TIGTA) analysis of Master File data.
Figure 2: Shelved Business Master File (BMF) TDA Tax Modules and Taxpayer Accounts. The
BMF data does not include businesses that had a business-closed date on the Master File or estates.3

       Balance-Due                                                                Amount Due With       Percentage
         Amount           Tax Modules    Taxpayers         Total Amount Due           Liens              Protected
    Total Shelved              564,072        289,117              $1.3 Billion         $252 Million          19.98%
                      4
    $5,000 and Over            154,596         51,542             $845 Million          $243 Million          28.75%
    $25,000 and Over            26,557          6,476             $435 Million          $166 Million          38.14%
    $50,000 and Over            12,691          2,271             $289 Million          $121 Million          41.71%
    $100,000 and Over            5,542               645          $182 Million           $87 Million          47.48%
    $500,000 and Over              632                69           $73 Million           $37 Million          51.25%
    $1 Million and
    Over                           193                23           $40 Million           $22 Million          53.82%

Source: TIGTA analysis of Master File data.


1
  This is criteria we defined during our review, not Internal Revenue Service (IRS) criteria.
2
  The IRS requires lien determinations on assigned cases when the aggregate balance due is $5,000 and over.
3
  This is criteria we defined during our review, not IRS criteria.
4
  The IRS requires lien determinations on assigned cases when the aggregate balance due is $5,000 and over.
                                                                                                             Page 24
                        High-Risk Work Is Selected From the Unassigned Delinquent
                         Account Inventory, but Some Unassigned Accounts Need
                                         Management’s Attention



                                                                                                    Appendix VII

    Credit Balance Taxpayer Delinquency Investigations

Figure 1. Shelved Individual Master File (IMF) Credit Balance Taxpayer Delinquency
Investigations (TDI). The IMF data includes only those taxpayers that were alive (no date of death
entered on the Master File) and between 20 and 65 years old.1

                 TDIs Shelved                            IMF Tax Modules             IMF Taxpayers
                 Overall Total                                      3,240,875                     1,982,260
                 Total With Credit Balance                            244,254                      180,678
                 $5,000 and Over Credit                                37,354                       26,373
                 $25,000 and Over Credit                                4,442                        3,355
                 $50,000 and Over Credit                                1,593                        1,253
                 $100,000 and Over Credit                                 544                          449
                 $500,000 and Over Credit                                   35                          35
                 $1 Million and Over Credit                                  5                           5
               Source: Treasury Inspector General for Tax Administration (TIGTA) analysis of Master File data.




1
    This is criteria we defined during our review, not Internal Revenue Service (IRS) criteria.




                                                                                                              Page 25
                         High-Risk Work Is Selected From the Unassigned Delinquent
                          Account Inventory, but Some Unassigned Accounts Need
                                          Management’s Attention


Figure 2. Shelved Business Master File (BMF) Credit Balance TDIs. The BMF data do not include
businesses that have a business-closed date on the Master File.2

                 TDIs Shelved                             BMF Tax Modules          BMF Taxpayers
                 Overall Total                                         1,295,543            432,125
                 Total With Credit Balance                              134,809              73,450
                 $5,000 and Over Credit                                  18,136              11,440
                 $25,000 and Over Credit                                  1,495               1,117
                 $50,000 and Over Credit                                    581                450
                 $100,000 and Over Credit                                   253                206
                 $500,000 and Over Credit                                    21                    21
                 $1 Million and Over Credit                                  12                    12
               Source: TIGTA analysis of Master File data.




2
    This is criteria we defined during our review, not IRS criteria.




                                                                                                        Page 26
    High-Risk Work Is Selected From the Unassigned Delinquent
     Account Inventory, but Some Unassigned Accounts Need
                     Management’s Attention



                                                 Appendix VIII

Management’s Response to the Draft Report




                                                          Page 27
High-Risk Work Is Selected From the Unassigned Delinquent
 Account Inventory, but Some Unassigned Accounts Need
                 Management’s Attention




                                                      Page 28
High-Risk Work Is Selected From the Unassigned Delinquent
 Account Inventory, but Some Unassigned Accounts Need
                 Management’s Attention




                                                      Page 29
